                                    NATIONAL SCIENCE FOUNDATION
                                     OFFICE O F INSPECTOR GENERAL
                                       OFFICE OF INVESTIGATIONS


                         CLOSEOUT MEMORANDUM

Case Number: A02020007                                                    Page 1of 1


       The subject1 submitted a proposal2 that was alleged to have plagiarizedlmaterial
    that had been taken from a n NSF grant3 and a published paper.4 Our Report of
    Investigation was provided to NSF's Deputy Director, who made a finding of
    research misconduct. The subject appealed the Deputy Director's decision to NSFs
    Director. The Director upheld the finding. Our Report of Investigation, the NSF
    Deputy Director's letter, and the NSF Director's letter reflecting their decisions
    constitute the closeout for this case. Accordingly, this case is closed
                              .
                           ;._.
                                  ..
                                  -.-.
               .   .                                                NATIONALSCIENCE FOUNDATlON
                              .          .         .   .                   4201 WILSON.BOULEVARD                .    .       .   .   '       .   . ..
                                             . .                .   . .   ARUNGTON, ~iflGlNlA22230                       .




                       '    Re: Decision on Appeal of Misconduct in Science Determination -Dr.,                                                         -

 ---L-       -                    - .             . - .
                                               ~ ..        :~              .
                                                                               --   ~ - -
                                                                                        -          --. -
                                                                                                ~ - -               ,.
                                                                                                                                                            _
                                                                                            ~



                                                                                                           i-

                                                                                                                                         -

                           : 0n ~obember3,2004, your client,
                                                                                                                         '                              .
                                                                                                                                                                -. .....

                                                                       -    filed an appeal of the'decision issued
              by.Dr.Joseph Bordogna, the National Science ~oundation's('NSF')Deputy Director, dated
                                                                                                                  .
             . August 24,2004. In your appeal, you argue that Dr. Bordogna's'decision should be reversed

               because: (1);       did not copy the amount of text that NSF found him to have copied; (2) the
                                                                                                                .
               amount of text copied by .       did not warrant a finding'-ofscientific misconduct;-(3)the
               Universiiy's investigation did not pennit I     t o respond to specific allegatims; (4).
               conduct was not a serious deviation fiom accepted prddces of his research community; and ( 5 )
                       actions were the result of an honest error. For the reasons detailed below, your appeal is
               denied,
                             sbbmitted a proposal to NSF that copied the ideas and words of another individual
              without adequate attribution and, by doing so, he misrepresented someone else's work as his
              own. Although           argues that he did not plagiarize as many lines of text that NSF has found
              him to have copied, he concedes that, indeed, he did plagiarize at least 15 lines of text. After a
              review of the record, I affirm NSFysprevious finding with regard to the amount of text copied.
              However, even if I were to accept           argument in this regard, I would still conclude that
              such conduct warrants a finding of scientific misconduct because it was reckless, as well as a
              serious deviation and a significant departure from the accepted practices of his research
t!            community. Moreover, '            misconduct was exacerbated by the fact that           copied text
              from a confidential proposal - a blatant violation of NSFysmerit review process.
     ,                I further find that NSF provided       all the procedural protections to which he was
     a
              entitled in accordance with NSF regulations. Specifically, NSF sent         a copy of the draft
              investigative report and gave him an opportunity to submit comments and argument in
         I
              connection with the report, which        .did. Dr. Bordogna considered these comments before
              making his decision. In addition,        was given a full and fair opportunity to appeal the
              decision, anh submit additional comments in comection with the appeal. Thus, your contention
that :     was not provided with an adequate opportunity to rebut . .
                                                                     the allegations against him is
specious.,          ..                                                                        . .

        This is NSF's final administrative action in this case. There is no fkther right of appeal.
If you have any questions about the foregoing, please call Lawrence Rudolph, G e n d
at (703) 292-8060.


                                          ,   .    .   Sincerely,                . .        .           .




                                                       Arden L.Bement, Jr.
                                                       Director.                       ..       .
                                                                                                    .
    . ,
    ,
      .. .   :
                 ,
                 .   I




                         .   .
                                 .

                                       .   .
                                                                :n:
                                                                .   ,   NAlIONAL SCIENCE FOUNDATION.
                                                                                                               .

                                                                                                                     .
                                                                                                                       ,           .       .  '
                                                                                                                                                  .

                                                                                                                                                  :    -
                                                                                                                                                          .- .
                                                                                                                                                          .




                                                                                                                                                          .
                                                                                                                                                           1..
                                                                                                                 . Y ,. . . . . . .. . ... . . . .. .. .. .. .
                                                                                                                                                  .: . . . .
                                                                                                                                                              .
                                                                                                                                                                      . . . .. .. . .. ..
                                                                                                                                                                                . . . .. . .-

                                                                                                                                                                          . .. . . .
                                                                                                                                                                              .       .  . .
                                                                                                                                                                                            .:
                                                                                                                                                                                          . .. .

                                                                                                                                                                                              .   I
                                                                                                                                                                                                         . .
                                                                                                                                                                                                             .
                                                                                                                                                                                                                    . . .
                                                                                                                                                                                                                     .
                                                                                                                                                                                                                          .


                                                                                                                                                                                                          . . . . . .. . . .
                                                                                                                                                                                                          '
                                                                                                                                                                                                                             ,
                                                                                                                                                                                                                              .

                                                                                                                                                                                                                        . . . .
                                                                                                                                                                                                                       . . . . .
                                                                                                                                                                                                                                                                    .   .




                                                                                                                                  . . . . . . .. .. .. . . . .. ..                                  . . . . . . .
                                                                            4201. WILSON BOULEVARD                                         . . .. .. .. .. . . . .,. . . .                                 .    .  . . . . . . . .
                                                                                                                                                              .:..
                                                                                                                                                . . . .,< .--.:: . ..
                                                                                                                                                                      ':.              .    .           .       ..        .
     .                                                                     ARLINGTON, VIRGINIA -22230                                                                                                   ..
                                                                                                                                                , .                                      ~
         .                                                                                                                              "
                                                                                                                                      . . . ' . . : :. . . . . . .
                                                                                                                                       . . . . . : . . . . . . ...
                                                                                                                                      . . . . . . . . . . .'.;'.: ... .:"                          .. .
                                                                                                        . .                                      ..';?.(.',.- .. :"' . . ... . . :
                                                                                                                             . .. .... . .....
                                                    .       .                                                                       ..
                                                                                                      .. . .       .                         . . .:   . ." -;-:".~,..-:.:...   . -:: . .'
    .        .                                                                                           .   - .                                    .                              .,..-. ; .
                                                                                                                           . . . . .. .. . '. . - ..: ...:.. ,..- < ., , .. . .. ... .. . . . . .. . .
                                                                                                                                    .
                                                                                                                              . .. . ... . . . . . . .,;;-..
                                                                                                                                        .......
                                                                                                                                                         . ....       ....
                                                                                                                                                              . ,..;.:...: ' . .,
                                                                                                                                                                  ..-. .;:I         :1.
                                                                                                                                                                                                 .      .. .
                                                                                                                                                                                                . . . . . .                 . .
                                                                                                                                                          . : ' ; '. .. .,.:. .,.'.'            . .. .. .
                                                                                                                        ..                             ...;i.;::. . :
                                                                                                                                                    ..................
                                                                                                                                               . . . . ., . . ..
                                                                                                                                                                                 : . . . . ::                  :
                                                                                                                                                                                                             . . .
                                                                                                                                                                                                                                         .
                                                .       .                    . .                                         . .                 . .. . .... .:,. . . :.  ...                            ...
                                                                                                                                             . . . . . . . . . . . . . .
                      &=ICE OF THE                                                                 ,.  .                     .           .          ; , ...   .. .. . ... .. .,.. .                   .
                                                                                                                                     .        .; . ......  . *.:   .......
.            -       OEW~VDIRECTOR                                                                                            . . .. .. . . . . .. :, ;<::. . .
                                                                                                                                                                                         . . . . . .' .




                                                                                                                                                                              .. ,
         Re: Notice of Misconduct in Science Determination - Dr. Xiaoxing Xi
                                                                                                                                                                                             .
                                                                                                                                                                                     .        .
                                                                                                                                                                                  . . .. .. ... . ... .
                                                                                                                                                      .       .                        .       .
                                                                                                                                                                                 . .. . .. . . . . .
                                                                                                                                                                          .    . -. . . . . . . .                                             .        .
                         . . .                                                                                                                                                                .               .                    . .
                                                                                                                                                                                 . .. . . . .                     .
         Deal-                                                                                                                                        .           F
                                                                                                                                                                                 . . .. . .
                                                                                                                                                                                 .                .                   .

         0n m o b ? 31,2001, your. client,
                                    . .    -                                                    .    -          submitted.a proposal
                                                                                                                                 .   to .+t+~atio&l
                                                                                                                                         .    .
                                                                                                                                               .
                                                                                                                                                  ~,cience        .                           .

         Foundation entitled :
                                                                  . attached Investigative'Report
                                               As docum&ted in .the
                                                                                                                                                                                                                                  . . . . .


         prep&ed by NSF1s Office of 1nspect6r General (OIG),       proposal. contained plagiarized
                                                                                          .   .    .                                                                                                                                              .
         text..          .   .




          Under the NSF's regulations thst were in place at thi time of the proposal submission,                                                                                                                                                  ,.       '.



          "misconduct" was defined to hclude "plagiarism, or other serious deviation from accepted
          practices in proposing, carrying out, or reporting r q l t s fiom activities funded by NSF." 45 CFR.
          $689.1(a). . Current NSF regulations. expressly exclude '%onest error'' and :define research
          'misconduct to mean "fabrication, falsification, or plagiarism in proposing or p e r f o w g iesearch
          funded by NSF. ..: Plagiarism means the appropriation of another person's id&, processes,                                                                                                                                               .    .        .

          resu1ts.0~words without giving appropriate credit.. .." 45 CFR. $689.1(a).
          Today's regulations also set forth NSF's policies and responsibilities in .pursuing
                                                                                        .     research                                                                                                .

          misconduct cases:                                                               .                                                                                                               .




                                 A finding of research misconduct requires that -
                                 (1) There be a significant departure fiom accepted practices of the relevant research
                                     community; and
                                     (2). The research misconduct be committed intentionally, or knowingly, or recklessly; and
                                     (3.) The allegation be proven by a prepondeiance of evidence.
/:,::'             . . -
                                . .
                                        ..
                                      . .                        .  . .   .     .
                                                                                         .
                                                                                             .                              . ... .                  .     .

. . . .. . . . . . ... ... .. .. . . . .:.       _                 .    .
                                                                            .
                                                                                 .
                                                                                 .               . ..   .       .           .    .
 . . . . . . . . . . . . . . . . . . ... . . . . . . . . .. .                                                           .   .                   ..       . .
. .. .... ... .. .. ... .:.... . .. . .:. . .. ...>'!.. .. . .
                                   . . . .. . . . . ..
                                                               . .   .               .       .
                                                                                                                                            .                      Pa'ge 2   .
  . . . . . . . . . ..                           . . . . . . .                                      .       .
     ,.:..:. : . . :. . . . . . . . . . . . . .
      ....,
    . . ...". ... . .      .
                                     ,$~op&l&nt&         . .
                                                                 verbatim :and paraphrased :text from a published paper and from an
                     -NSK
         .:...; : .:.:.
     . . . . . . .. .. . .
                                  pi&po$d      :;$hat   his: spouse::review~   and to. which hb enjoyed inappropriate aooess.l By.
'     .. . . : . : sub&tting::l!a;          . P&posal
                                                . . . .      t o NSF that .copies .the ideas or words : of another without. adequate
 . . .
    . :.
      '      ,   ;. attiibhtion,.as' describ,ed@the OIG Investigativk ~eport,:he!mi&epresented                  someone else's work
        .       . . .
                          '
                             . . . .. . .
 . ......... as his own. 'Under theNSFregulations that were in place aithe time, this' constitutes plagiarism
          . . . .. .. .
.. . . . . .
   . . ... . . .. .:. .a s w e l l as a serious diviation fiom accepted practices ivithin the scientific community..
       :.. :. .
                              . .                           '

. . .-. ... . . , ~ o m v e r ,
                 .                                  : actions!-appropriating of another person%words without v i n g appropriate
                                                                        ,



                      -credit...- also: :wastitute plagiarism,. &d therefore research misconduct, under c&ent NSF
                     -~egulations.
                     ,              .  . . :. I therefore Conclude that:
                                                                               .     actions meet both definitions of misconduct id..
                                                                                                                         .                                     .
                    : science.:           . ...       '         '   .   . . .
                              . . . . .
                                                                   . .                                             .                             .
                                                                                                                                                                                                            .    .
                       under 'current regulations, the Foundation must also determide whether tomake a Pndirig of                                                            ,            . .
                     . misconduct basedo~ia      pr\p.nderance of the evidence.' 45 CFR $ 689.2(~). ~ f t ereviewing
                                                                                                              r        the            ' '                                        '       . , ..,

                       ~nvesti~atiie  Reprt.tind.the U~versityCommittee Report, the.NSF has d e t d e d that based ;
                       on a pieponderance of the evidence,                      plagiarism. was reckless and constituted a                                                   ,                     ,,           ..

                       si'gnificant depatthre.fiom
                                           ...      acceptted.practices of his reseaioh mmnhity.                        .                                           .



                              NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
                              -me        to a finding of misconduct. 45 CFR §689.3(a). Group I actions include iss& a letter
                              of reprimand conditioning awards on prior approval of particular activities fiom NSF; requiring
                              that an institution or individual obtain special prior approval of particular activities fiom NSF;
                              and. requiring that an institutional repres&tative catify as to the accuracy of reports or
                              certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group 11
                              actions include award suspension or restrictions on designated activities or expenditures;
                              requiring special reviews of requests for fbnding; and requiring correction to the research record.
                                45 CFR §689.3(a)(2). Group JII actions include suspension or termination of awards;
                              prohliitions on participation as NSF reviewers, advisors or consultants; and debarment or
                              suspension fiom participation in NSF programs. 45 CFR $689.3(a)(3).
                              In determining the severity of the sanction to impose for research misconduct, 1have considered
                              the seriousness of the misconduct; our determination that it was reckless rather than knowing or                                                                              .        .
                              infrmti~na&   the detemination that it -was an isolated event and hot part of.a pattern, ;and the
                                                                                                                                                                                     .       .
                              insignificant impact on theresearch record, researkh subjects, other researchers, institutions, and
                              the'pblic welfare I have also considered other relevant circumstances. 45 CFR $689.3 Q).
                                                                                                                                                                                              ..
                               I .find           plagiarism to be serious because. when he copied .text from the proposal, he
                              violatd.thk NSF merit review process. The NSF has a vested interest in protecting its.merit                                                                .              '


                              reviewprocess, and your client,violated the confidentiality of merit review in conjunction with
                              his plagiarism. This breach exacerbates,          ? plagiarism.


                              There are, however, several mitigating factors. First, relatively small portions of the proposal
                              and thepaper were plagiarized, and all ofthe copied text was iqthe background section of the
            *
                                         .   '       NSF sent               spouse proposal :
                                                          earlier in 2001 for confidential peer ieview.             ~
                                                                                                                                               .               .

proposal.'rather than .in the descxiption of t , propo& res&h,, .second, '.. . . . :;th&y&                   feud
                                                                                                            . . . . . . . . ..                     .       .           .

c1ient's::plhgiarism W~IS reckless, rather than knowing or i n t e n t i o . ~Third,:,hi#
                                                                               ~~                 d&:hdan.                                                 ,       .   ,




insignififimtimpact on the research record, and the University Committee found thit
actions were not egregious. Fourth, the Committee investigated and expressly fdund h i t Dr.
     actions were an isolated event and not part of a pattern( Fifth, in your Mar~h,6~                    2003 letter
to the NSF Office of the Inspector General you pointed to unusual family and prpfessional
st~esses,the fad that English is a second language for your client, and that he bears r i n s i b i l i t y
for his sloppiness. Finally, I have taken into account the measures the University has already
implemented and the fact that the letter ofreprimand currently in your client's p e r. s o. ~. efile            .
                                                                                                                  l . wii
                                                                                                             . .
expire in approximate1y 7 months.                                                                             . '
                                                                                                               2

                                                                                    . . .. . .. .. .. .. . . . .. .. . .
                                                                                                         .     :
                                                                                                                           .


                                                                                                  . . . . . . . . .. .. . . .
                                                                                                          . . .
                                                                                                     .   . . .:.
I, therefore, take the following actions:'                                                                  . .. .. .. .   . .

         If          submit$ any proposals to NSF fiom the date of this letter until February 26,
         2005, he must simultaneously submit a copy of the proposal along with a separate written
         certification to the Office of Inspector General, 4201 Wilson Boulevard, Arlington,
         Virginia 22230. The certification shall state that he has reviewed NSPs Miscanduct in
         Science ~egulation(45 C.F.R. Part 689) and that the proposal contains no p1,a;giarized
         material.                                                                             ...                     .       .
                                                                           . . . .
         For the same time period, if         submits a proposal to NSF, he must ensun;thathii                                                                 .

         Department chairperson or the equivalent simultaneously submits a certification to Office
     .   of Inspector General that, to the best of that. .person's knowledge, -'theproposal
                                                                                      . .    . -. does not
                                                                                                      .  .
                                                                                                                   .                       .

         contain any plagiarized material.                                          . . .. .             .    .                .




Under NSF's regulations, your.clienthas 50 days after receipt of this letter to submit an appeal of                                                    ,       .

this decision, in writing, tothe Director of the Foundation. 45 CFR $689. lqa). Any appeal
                                   ,                                                                                       '




should be addressed to the Director at the National Science Foundation, 4201 Wilson B,oulevard, .                                                          .
                                                                                                                                                               .
Arlington; Virginia 22230. For your information we are attaching a copy.of the -applicable
                                                                                                                                                       '




regula,tions. If you have any questions about the foregoing, pleqse call Lawrence Rudolph,
General Counsel, .at (703) 292-8060.                                                . .  .
                                                                                                                               . .

                               Sincerely,
                                                                                                                                   .   .




                           Joseph Bordogna                      .   .

                           Deputy Director

Enclosures .         '                      .   .

.  Investigative Report
- 45 C.F.R. 689.           "                                                                  .   .
         National Science
            Foundation
    Office of Inspector General




                     Confidential
                 Investigation Report
               Case ~ u m b e r ~ 0 2 0 2 0 0 0 7
                          6 February 2004                                          -




    This C ~ N ~ D E N T I ADL m INVESTIGATIONREPORT is hto you FOR OrniIW mE ONLY.
           It remains the property of the Office of Inspector General, It may not be reproduced
   It may be disclosed outside NSF only by the Inspector Genera! under the Freedom of Infonnation and
                                     PrivacyActs,5 U.S.C 55 5 5 2 , 5 5 2 ~ ~

NSF OIG Form 22a (1103)
                                              Summary
       The Office of Inspector General (OIG) has concluded the subject plagiarized
text from a confidential NSF proposal and a published paper into his proposal. As a
result of its investigation, the subject's university found the subject committed
research misconduct under its policy. It reprimanded him and required him to
attend a research ethics conference and participate in the University's research
ethics course for its graduate students. We recommend the National Science
Foundation (NSF) send a letter of reprimand to the subject informing him he has
been found to have committed research misconduct and require him to provide
certifications for 2 years.



        We received a n allegation that a n NSF proposal, submitted by the subjects
(the PI (subjectl) and four co-PIS (subjects2-5)),1 contained ideas, text, references,
and a figure taken from a confidential proposal submitted to NSF.2 During our
inquiry, we identified approximately 21 lines of verbatim text, one figure, and 5
references in the subjects' proposal's "Overview" and "Proposed Work" sections that
appeared copied fkom the source proposal. Additionally, we found approximately
five lines of text copied verbatim from a published paper.3 Our examination of
N S P s database showed the source proposal was reviewed by subjects, who,
accordingly, was also alleged to have violated the confidentiality of NSFs merit
review.
      We wrote letters to all five subjects asking for their input.4 From their
responses to our letters, we learned subjects2-5 did not contribute any of the
questioned text; those sections were prepared by subjectl.
       In her response, subject2 stated she sought subjectl's opinion on the
expertise and research of the PI who submitted the source proposal. She did this to
assist with her review of the source proposal. In response to subjectl's request for a
copy of the source proposal, subject2 admitted she provided an electronic (pd9 copy
of the source proposal to subjectl for his evaluation. She said she did not seek
permission fkom NSF before doing so because she assumed subjectl would keep the
proposal confidential and did not have a conflict of interests. Likewise, subjectl
said he received the source proposal from subject2 when he asked for it after she
asked him for his opinion of the PI'S research.

    1 (redacted) The proposal is included a s Appendix 0.
    2 (redacted). We refer to this proposal as the source proposal and include it a s Appendix (B).
    3 (redacted). We refer to this publication a s the paper and include the relevant pages as
Appendix (C).
    4 We include our letter to subjectl, which is similar to the letters sent to subjects3-5. The letter
to subject2 is slightly different because it also contains a question about the alleged violation of
confidentiality of NSF's merit review. These letters, together with subjectl's and subjects's
responses, are Appendix (Dl.
       Subject1 said that although he had a copy of the source proposal and paper,
he did not make use of any ideas fiom either.5 He said his research was unrelated
to the research proposed in the source proposal. Regarding the copied text itself, he
said it was mostly in the background section and described results so commonly
known in the field they did not necessarily require a citation. Subjectsl-2 provided
examples of papers with similar, but not identical, text to illustrate the
commonality of the ideas.
       Based on our analysis of their responses, we found no evidence of substantive
intellectual theft in the subjects' NSF proposal. However, we did not accept
subjectl's or subject2's arguments that subjectl had appropriately referenced the
copied material or that referencing the material was unnecessary. Therefore, we
formally referred the allegations to the subjects' university for investigation for its
opinion of community standards regarding subjectl's and subjects's actions.6


                                    The Universiws Actions
       The University appointed a n Investigatory Committee (IC) to conduct the
investigation. The IC had five members and interviewed the co-PIS not directly
involved in the plagiarism (subjects3-51, subjectsl-2, two science ethicists, two area
experts, and the complainant. It treated the allegations against subjectl and
subject2 individually, issuing a separate report on each subject. We will discuss
them separately as well.
                                    Investigation of Subject1
       The IC investigated7 whether subjectl "plagiari[zedl by failing to attribute
material (ideas and text) in a proposal he submitted to NSF . . . to the original
authors of that material - a source proposal given to him by his spouse,[8] [subjects],
and a source paper."g Regarding how subjectl obtained the source proposal, the IC
co&med subjectl's and subject2's previous explanation. After soliciting and
receiving the source proposal from subject2 for the purpose of providing an opinion
for subject2's review, subjectl did not delete the file from his computer; two weeks
after soliciting and receiving the source proposal from subjects, he submitted his
proposal to NSF.


    6  See subjectl's letter in Appendix (Dl.
    6  From our Inquiry, we concluded subjects3-5 were not responsible for the alleged plagiarism.
Accordingly, we did not refer them to the University as subjects, but asked the University to reach
a n independent conclusion about their roles. Our referral letter is Appendix (E). The University
concluded subjects3-5 were not responsible for any of the plagiarized text and took no action against
them. We subsequently notified subjects3-5 that they were no longer considered subjects in this
case.
     7 The IC report for subjectl is Appendix (F).
     8 We were not aware subjectl and subject2 were married until the University told us during its
Investigation.
     9 Appendix (F), p. 1of the University Report.
       The IC broke the allegation into three actions: copying text from the source
proposal, copying the figure from the source proposal, and copying text from the
paper. It found there were 22 lines with approximately 135 words of identical text
taken from the source proposal. Additionally, although the IC recognized "the
figure represents a very well known structure for which a reference is probably
unnecessary,"lO it also concluded Figure 3 was copied from the source proposal
because a font distortion of a letter in the source proposal's figure was reproduced in
subjectl's proposal. The IC found 6 lines with approximately 70 words of identical
text were taken from the paper. With regard to text copied from the paper, the IC
and one of the area experts found this use of identical text to describe previous
research was not "substantially misleading to the reader or of great sigmficance."ll
The IC concluded s subject:^] was responsible for writing all text that is in question
in the . . . proposal."lz The IC evaluated another of subjectl's proposals for
evidence of a pattern of plagiarism and found no plagiarism.
       Although the IC did not consider the amount of copied text egregious, it
concluded it was worse to copy from a confidential proposal "because it could be
more difficult to prove the original source and therefore easier for someone to own
authorship . . . as there is no historical record open to the public."l3 In assessing
intent, the IC concluded subjectl's intent in copying the figure was knowing, while
his intent in copying the text was reckless. It reached this conclusion because of the
way in which subjectl prepared his proposal.14 The IC concluded subjectl engaged
in research misconduct and recommended the University take three actions as a
consequence (described in the next section below).l5
                              University action against subject1
       The IC recommended (1) the University write a letter of reprimand to
subjectl and place a copy in his file for 2 yearsl6; (2) subjectl participate as an
organizer and presenter of a workshop on research ethics for graduate students; and
(3) subjectl attend a conference on ethics in science. The Dean of College of Science
implemented the actions recommended by the IC.17




    10 Appendix (F), p. 5 of the University Report.
    11 Id.
    12 Ibjd, p. 3.
    13 Ibid. p. 5.
    14 Subject1 told the IC he collected text and bibliographic information from relevant work and
cuts and pastes from the source to a latex file. He said he didn't have a systematic method of
marking others' text for later referencing.
    16 Appendix (F), p. 7.
    16 If, after 2 years, no other indications of plagiarism are found, the letter will be removed.
    17 Appendix (F), p. 1.
                                    In vestica tion of subject2
        The allegation considered against subject2181 l9 was "violating the
confidentiality of NSF's merit review process when she gave a copy of a confidential
source proposal, sent to her for review by NSF, to her spouse, [subjectl], without
first seeking permission fiom NSF."2O The two area experts agreed that sharing a n
NSF proposal without NSF approval was a departure from accepted scholarly
practices, although one expert said he had asked others and others had asked him
to assess parts of a proposal without permission. While the experts agreed it was a
departure from accepted practices, the IC concluded subject2's action was a
significant departure; it also concluded her action was committed with reckless
disregard, and both these conclusions were supported by a preponderance of the
evidence. However, the IC concluded her action was not research misconduct due to
the extenuating circumstances and that the allegation does not seem to fall within
NSF's definition.21 The University took no action against subject2.


              Subiectl's Response to the UniversiWs Investigation Report
      Subjectl responded22 through his attorney23 that he does not believe the
evidence supports a finding of research misconduct for plagiarism for the following
reasons: (1) there was no intent to portray someone else's work as his own; (2) the
verbatim text was not substantive-it described commonly known results and
appeared in the Background; and (3) the amount of copied text is de mihimus.24
       Subjectl invoked the "honest error" exclusion in NSFs definition of research
misconduct, suggesting he was merely sloppy in his writing of the proposal. He
argued his unusual family and professional stress and the fact that English is a
second language for him should be considered mitigating factors to his sloppiness.25
Subjectl argued most definitions of plagiarism require the intent to portray
someone else's work as one's own, and he did not do so. With regard to NSFs
potential finding, subjectl said the IC concluded subjectl's intent in his copying of
text was grossly negligent, and in only one other plagiarism case did NSF make a
finding of misconduct based on gross negligence.26 Subjectl said he did not know he
submitted text without appropriate attribution. He concluded by stating intent is
inferred from a pattern of conduct, and there was no pattern of plagiarism.

    18 As the University conducted its Investigation, it learned subjectl was solely responsible for the
copied text and narrowed the scope of its Investigation against subjects.
    19 The IC report for subject2 is Appendix (GI.
    20 Appendix (GI, p. 1of the University Report.
    21 Ibid., p. 5.
    22 Subjectl's response is Appendix (HI.
    23 Since subjectl responded through his attorney, (redacted), we attribute their correspondence
to subjectl.
    24 Appendix (HI, p. 1.
    25 Appendix (HI, p . 5.
    26 M93-03.
       Subjectl discussed a n NSF case he said contained the fewest number of
copied lines (22) i n which NSF made a finding of plagiarism.27 He said in that case
the copied text was substantive and the subject's university found it added a new
analytical method to the subject's proposal. Subjectl disputed the number of lines
copied from the source proposal, saying it was 15 "equivalent" lines instead of 22
lines, arguing the other lines were unrelated to the proposal. Subjectl also listed
several other cases that were closed because the amount of copied text did not rise
to the level of misconduct in science.28


                                         OIG's Assessment
       We believe the IC's Investigations were accurate and complete in addressing
the allegations, and the University followed reasonable procedures; therefore, we
accept them in lieu of doing our own investigation.29 A finding of misconduct
requires that (1) there be a sigzllficant departure from accepted practices of the
relevant research community, and (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a
preponderance of the evidence.309 31
                                               Subject1
                                               THEACT
      Subjectl copied 22 lines of text, 1 figure, and 5 references from the source
proposal and 6 lines from the paper into a proposal he submitted to NSF.32 The IC
concluded the figure was generic enough not to necessarily warrant a reference, and




    27 M98-10.
    28 These  cases are M99-50, M98-25, M98-05, M97-46, and M97-23.
    29 Although  we accept the IC's Investigation Reports, we do not concur with the IC's assessment
of subjectl's intent as discussed below in the Intent section.
    30 45 CFR Q 689(2)(c).
    31 After we provisionally accepted the IC's conclusions and sent out our Report of Investigation
(ROI) to subjectl, he responded commenting both on our ROI and again on the University's
Investigation Report. This second response is attached as Appendix (J)and we address these
comments in the section of this ROI entitled "Subject's Response to Our Draft Report of Investigation
and Our Additional Response." We note this second response prompted us to request that the
University adjudicator clarlfy the initial h d i n g of the IC with respect to how it defined subject 1's
three actions (copying text from the proposal, copying the figure, and copying text from a published
paper). The adjudicator found subjectl's actions in each was a significant departure from scholarly
standards. Our letter requesting clarification and the adjudicator's response is attached a s Appendix
(la.
    32 We do not agree with subjectl's suggestion that he copied only 15 lines as the other lines are
unrelated to the proposal. Subjectl obviously copied verbatim text into his proposal for some reason
related to the proposal. We need not examine the issue of relatedness or relevance to determine if
the text was copied. There is a small difference between our count and the IC's count of the number
of copied Lines of text. This difference is most likely due to estimating counting partially copied lines.
we concur.33 Subjectl suggested the copied text in the background section is not a s
sigmficant and "when [he] was editing the Background sections, [he] did not pay
much attention to avoiding identical or similar sentences to appear in [his]
proposal."34 This is contrary to NSFs clearly stated policy that "NSF expects strict
adherence to the rules of proper scholarship and attribution. The responsibility for
proper attribution and citation rests with authors of a proposal; a n p a r t s of the
proposal should be prepared with equal care for this concern. Serious failure to
adhere to such standards can result in findings of research misconduct."35
       The IC considered the 22 lines of text copied from the source proposal to be a
significant departure from accepted practices, especially because it was copied from
a confidential proposal. We concur with the University that copying from a
confidential proposal is very serious; it violates the confidentiality of NSFs merit
review process. Merit review will be most effective only if scientists trust their
proposals will be handled in a confidential, fair manner.
      Regarding subjectl's analysis, most of the cases he cited where OIG did not
recommend a finding were not comparable in the quantity of copied text to this
case. While there are partial parallels to numerous cases, each case is unique and
judged on its own merits. In this case, we believe, a s did the University's
adjudicator, a preponderance of evidence shows the subject's act of copying material
from two different sources (one of which was a coddential proposal) into his
proposal represents a sigmficant departure from accepted practices.


       As noted previously in this report, the IC concluded subjectl's copying of a
figure was knowing, but his copying of verbatim text was deemed grossly negligent
because of the way in which he prepared his proposal. While we agree with the IC's
finding of facts, we do not agree with its assessment of intent. The IC assessed the
intent of the subject in usingthe already-copied text rather than his intent in
copyingit. When subjectl copied text from the source proposal, he knew he was
copying the text. Subjectl knew he (i) opened the source file, (ii) found the text he
was looking for, selected it, and copied it, and (id pasted it into his proposal. He
did not insert the text randomly, but inserted it where it would make the most
sense. The copying of the figure further supports this conclusion because subjectl
sought out the figure from the source proposal, copied it from the pdffile, and edited
it. We conclude subjectl's intent in copying the text from the proposal and the
paper was knowing.
     To summarize, we conclude a preponderance of the evidence shows subject 1
committed research misconduct when he knowingly copied 22 lines of verbatim and

   33 We note in its clarfication letter (Appendix (K)) the University's adjudicator concluded the
copying of the figure was a significant departure from accepted practices. We conclude subjectl
should have referenced the figure, but his failure to do so was not, by itself, a significant departure.
   34 Subjectl's response, Appendix (Dl,   p. 5.
   35 Grant Proposal Guide, section I. B, p. 9.(Emphasis added)
paraphrased text from the source proposal and 6 lines of verbatim and paraphrased
text from the paper without appropriate attribution-a significant departure from
community standards. We conclude subjectl's plagiarism is serious because he
violated the confidentiality of merit review by using material gathered from a
confidential proposal subject2 was reviewing for NSF.36


       Subject2 provided a copy of the source proposal to subjectl without obtaining
prior NSF approval. We concur with the IC that in doing so, subject2 violated the
confidentiality of NSFs merit review process. We also agree that subject2's act
should not be characterized as research misconduct. Nonetheless, subject2's actions
were deemed to be a significant departure from accepted practices, and we have
reminded her of the importance in following NSFs procedures when serving as a
reviewer.37


                               OIG's Recommended Disposition
       I n deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; the degree to which the misconduct was knowing, intentional,
or reckless; whether it was a n isolated event or part of a pattern; whether it had
significant impact on the research record; and other relevant circumstances.38
       I n our view, which the University shared, plagiarism derived from violation
of confidentiality of merit review is sufficiently serious to warrant sigmficant action
by NSF to bolster the community's confidence in NSF's merit review process.
Despite subjectl's claim he sloppily copied,39 we conclude the subject acted
knowingly when he copied text from the source proposal and a paper. The IC found
no evidence of a pattern and we accept its analysis. As the committee noted, the
impact on the research record from plagiarism is substantially increased when the
plagiarism is from a confidential source because there is no publicly available
record.40
      We conclude subjectl's plagiarism warrants a finding of research misconduct.
The University's action is appropriate, but does not completely protect the Federal
government's interests. We recommend that NSF make a fin&ng of research
misconduct and send a letter of reprimand to the subject.41 Consistent with the
University's time frame, we also recommend for 2 years after the resolution of this

    36 Although subjectl was not reviewing the source proposal, he has reviewed numerous proposals
for NSF, both a s a panelist (3        and as a mail reviewer (2 reviews), and he is therefore aware of
NSF's policy regarding the confidentiality of its merit review.
    3' Appendix (I).
    38 45 CFR § 689.3(b).
    39 Appendix (H), p. 5.
    40 Appendix (F), University report for subjectl, p. 5.
    41 The letter represents a Group I action (45 CFR 5 689.3(a)(l)(i)).
case, NSF require subjectl to provide to our office, in conjunction with any proposal
submission to NSF,42 a certification that his work contains nothing that violates
NSF's Research Misconduct regulation.43 These recommendations are consistent
with our recommendations in similar cases.


                                              t Investigation and Our Additional
     Subject's Response to Our Draft R e ~ o rof
                                     Response
      Subjectl responded to our draft ROI.44 He raised many procedural points
that we concluded were issues between him and his university. We concluded the
University's procedures were reasonable for our purposes. We address subjectl's
relevant issues below.
        Subjectl said we incorrectly applied NSPs definition.45 He correctly noted
his act occurred before 17 April 2002, so the previous definition of misconduct in
science and engineering46 should be used, but argued we inappropriately assessed
his action as a sigmficant departure rather than a serious deviation £kom accepted
practices of the relevant research community. As we discussed with subjectl, we
used the previous definition, but we otherwise followed the new policy to determine
if the alleged act warranted a finding.47 What this means is we initially determined
subjectl's alleged act-copying material from a confidential NSF proposal and
copying material from a published paper-was a serious deviation from accepted
practices and, thus, met the previous definition of misconduct. We then followed
the current procedure and concluded by a preponderance of the evidence subjectl's
action was a significant departure, committed with a culpable level of intent, and
was, therefore, misconduct.
       Subjectl said our plagiarism analysis was incomplete and inconsistent.&
Several of the issues he raised here are with the University's Report and were
adequately addressed in its clarification letter. He argued the University's and our
conclusion is inconsistent with NSPs position that breach of merit review is not
research misconduct. He further assumed a violation of the confidentiality of merit
review is only relevant to the seriousness of a finding, and can not contribute to the
finding. We disagree with both of those points. While NSF's current definition does

    42  This includes proposals, progress reports, and final reports.
    43  This is similar to a Group I1 action (45 CFR $ 689.3(a)(2)(li)).
    44 Appendix (J).
    45 Ibid.,p. 1, A.
    46 Previously, the relevant part of 45 CFR $ 689.1 stated misconduct meant "fabrication,
falsification, plagiarism, or other serious deviation from accepted practices i n proposing, carrying
out, or reporting results from activities funded by NSF."
     47 In particular, $ 689.2(c)(l) requires the alleged act be a significant departure from accepted
practices of the relevant research community. OIG's assessment is consistent with NSF's Office of
General Counsel guidance on how to handle cases of research misconduct when the alleged act
occurred before 17 April 2002.
     48 Appendix (J),p. 2, B.
not define a violation of the confidentiality of its merit review, by itself, to be
research misconduct,49 NSF has a vested interest in protecting its merit review and
can consider such an act improper conduct and prohibit a subject from reviewing for
NSF. However, more relevant and consistent with subjectl's action in this case,
NSF has previously made findings of misconduct in science when a subject has
violated the confidentiality of merit review in conjunction with plagiarism.
       Subjectl argued our intent analysis is flawed.50 He argued he recognized the
need for adequate citation and thought he provided it. He said the copied text,
while possibly a deviation, did not materially mislead the reader and does not rise
to a serious deviation.51 NSF's definition of plagiarism does not require the
plagiarized text materially mislead the reader. Nonetheless, text copied without
attribution to the original source can only give a reader the impression the author
wrote those words, regardless of their intellectual content. The University's
adjudicator concluded subject1 "using text and the figure without giving proper
credit, he misrepresented himself to the scientiiic community."52 Subjectl discussed
the intent in copying text, arguing scientists copy all the time, thus committing
what he defines as intermediate misconduct; i.e., copying and pasting text is
misconduct that is 'fixed' by adding quote marks and attribution. He said our
conclusion that he knowingly did not cite the confidential proposal because he knew
he could not is "belied by the university findings" that suggest his proposal
preparation left him open to "unintentional plagiarism."53 The argument that
copying, or cutting and pasting,54 text is 'intermediate misconduct' that is 'cured' by
adding citations is specious. If the copied words are appropriately cited to their
source, this is not a problem, ie., 'intermediate misconduct'; if the copied words are
not properly cited to their source, particularly if they cannot be cited to their source
because it is a confidential document the copier should not even possess, this
indicates a n intent to use the words as one's own and is indicative of research
misconduct. We have not seen this concept of 'intermediate misconduct' discussed
in the literature, and it is very likely most organizations would dismiss it as
nonsense.
       Subjectl suggested a finding of misconduct would be inconsistent with prior
NSF cases.55 His analysis of prior cases showed his conduct was a deviation, but
not a serious one. We disagree and note in particular a prior, analogous case56 in

    49 Violating the confidentiality of NSF's merit review, by itself, would not be considered research
misconduct under the current definition since it is neither plagiarism, falsification, or fabrication.
    50 Appendix (J),p. 3, C.
    51 Ibid.,p. 4.
    S2 Appendix (K),  University response, p. 1.
    53 Appendix (J),p. 4.
    54 The technology used by the subject does not alter the intent of his action. Regardless of
whether one copied text by pencil onto paper or by cut and pasted electronic documents, the intent is
to use someone else's words for their purpose; technology just makes it easier to copy in the latter
example.
    65 Appendix (J),p. 5, D.
    66 M98-10.
which NSF found the subject's copying of 22 lines of text from a confidential
proposal was misconduct.
       Subject1 argued the allegedly copied text was not identified by his university,
which impaired his quantitative and qualitative analysis and deprived him of an
opportunity to respond.57 Since subjectl was informed by OIG and the University of
the allegedly copied text, and he provided a quantitative and qualitative analysis to
the University, we understand this comment to address the minor discrepancy in
the word count between the University, OIG, and subjectl rather than implying
subjectl is unaware of the evidence associated with the allegation. In our letter
requesting clarification from the University, we asked it to identlfy the text its
finding is based upon; the adjudicator confirmed the IC used the highlighted text
provided by us to both the subject and the IC. With regard to subjectl's opportunity
to respond, we note subjectl has responded to the University's Investigation Report
(Appendix (H)) as well as our draft Report of Investigation (Appendix (J)).
       In concluding his letter, subjectl argued our recommendations "appear
extraordinarily punitive" when compared with how NSF has handled similar cases.
We disagree. Our recommendation for 2 years of cert5cations is consistent not only
with previous, similar cases,58 but with the University's time frame for keeping its
letter of reprimand in subjectl's personnel file.




   57 Appendix (J),p. 5, E.
   58 Again, we note M98-10 was similar in that the subject copied a similar amount of text from a
confidential proposal, and in that case, NSF made a finding of misconduct in a letter of reprimand,
required assurances, certifications, and barred the subject from serving as a reviewer for NSF for 2
years.
